 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
 UNIVERSITY OF MIAMI HOSPITAL




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Brian P. Ritchie
                                                Assistant Inspector General

                                                      September 2013
                                                       A-04-12-07033
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient's diagnosis. The DRG payment
is, with certain exceptions, intended to be payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of claims using computer matching, data mining, and analysis of claims.
This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

University of Miami Hospital (the Hospital) is a 560-bed acute care facility located in Miami,
Florida. Medicare paid the Hospital approximately $223 million for 20,953 inpatient and 24,535
outpatient claims for services provided to beneficiaries during calendar years 2009 and 2010
based on CMS’s National Claims History data.

Our audit covered $22,784,260 in Medicare payments to the Hospital for 2,194 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 200 inpatient
claims with payments totaling $2,905,695 for review. These 200 claims had dates of service
from April 1, 2009, through December 31, 2010 (audit period).

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient services on selected types of claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for the majority of the claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
68 inpatient claims resulting in overpayments totaling $524,009.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Based on our stratified random sample results, we estimated that the Hospital received
overpayments totaling at least $3,717,557 for the audit period.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $3,717,557 in estimated overpayments for the audit
       period that it incorrectly billed for inpatient claims and

   •   strengthen controls to ensure full compliance with Medicare requirements.

UNIVERSITY OF MIAMI HOSPITAL COMMENTS

In written comments on our draft report, the Hospital disagreed with our first recommendation.
The Hospital contested that it improperly billed five inpatient claims. Furthermore, the Hospital
objected to our decision to extrapolate the results from the audit sample. It also stated that it
concurred with footnote number 3 (page 5) regarding the possibility of rebilling Medicare Part B
for some services and that rebilling could have an effect on the estimated overpayments if
adjusted by the Medicare Administrative Contractor (MAC). The issue of whether older claims
can be rebilled has been subject to recent scrutiny at various levels; therefore, the Hospital
thought OIG should not extrapolate any estimated amounts of overpayments or make any
recommendations regarding refunds until the rebilling issue is settled. In regard to our second
recommendation, the Hospital discussed steps it had taken or planned to take to strengthen its
internal controls to ensure compliance with Medicare billing requirements.

OFFICE OF INSPECTOR GENERAL RESPONSE

Contested Determinations of Claims

In response to the Hospital’s contestation that it improperly billed five inpatient claims, we
obtained an independent medical review of all of these claims for medical and coding errors and
our report reflects the results of the review.




                                                ii
Rebilling of Medicare Part B Services

In response to the Hospital’s concerns regarding its ability to rebill for certain services that were
denied as part of this review, we acknowledge its comments; however, the rebilling issue is
beyond the scope of our audit. After the completion of our audit, CMS concurrently issued the
proposed rule CMS-1455-P and CMS Ruling 1455-R (78 Fed. Reg. 16614 (Mar. 18, 2013)) for
implementing Medicare Appeals Council and Administrative Law Judge decisions and for
handling claims and appeals until CMS could issue final regulations. CMS has now issued the
final regulations (78 Fed. Reg. 160 (Aug. 19, 2013)). The Hospital should contact its MAC for
rebilling instructions.

Statistical Sampling

During the course of the audit, we discussed with Hospital officials our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and non-statistical methods for selecting our samples.

We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
successfully used to identify overpayments. Therefore, we recommend that the Hospital refund
to the Medicare program $3,717,557 in estimated overpayments for the audit period.




                                                  iii
                                                      TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Hospital Inpatient Prospective Payment System .................................................. 1
              Hospital Outpatient Prospective Payment System ................................................ 1
              Hospital Claims at Risk for Incorrect Billing ....................................................... 1
              Medicare Requirements for Hospital Claims and Payments ................................ 2
              University of Miami Hospital ............................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

          BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ............................... 5
                Incorrectly Billed as Inpatient ............................................................................... 5
                Incorrectly Billed as Separate Inpatient Stay ........................................................ 5
                Incorrect Diagnosis-Related Groups ..................................................................... 5
                Incorrect Discharge Status .................................................................................... 6
                Manufacturer Credit for a Replaced Medical Device Not Obtained .................... 6

          OVERALL ESTIMATE OF OVERPAYMENTS............................................................ 7

          RECOMMENDATIONS .................................................................................................. 7

          UNIVERSITY OF MIAMI HOSPITAL COMMENTS. .................................................. 7
               Contested Determinations of Claims. ................................................................... 7
               Rebilling of Medicare Part B Services.................................................................. 7
               Statistical Sampling. ............................................................................................. 8

          OFFICE OF INSPECTOR GENERAL RESPONSE. ...................................................... 8
               Contested Determinations of Claims. ................................................................... 8
               Rebilling of Medicare Part B Services.................................................................. 8
               Statistical Sampling. ............................................................................................. 8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES



                                                                     iv
C: RESULTS OF REVIEW BY RISK AREA

D: UNIVERSITY OF MIAMI HOSPITAL COMMENTS




                            v
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33 and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG

1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



                                                         1
identified these types of hospital claims using computer matching, data mining, and analysis of
claims. The types of claims identified included:

   •   inpatient claims for short stays,

   •   inpatient claims paid in excess of charges,

   •   inpatient claims with same-day discharges and readmissions,

   •   inpatient transfers,

   •   inpatient manufacturer credits for replaced medical devices, and

   •   inpatient claims with high-severity-level DRG codes.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
types of claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

University of Miami Hospital

University of Miami Hospital (the Hospital) is a 560-bed acute care facility located in Miami,
Florida. Medicare paid the Hospital approximately $223 million for 20,953 inpatient and 24,535
outpatient claims for services provided to beneficiaries during calendar years (CYs) 2009 and
2010 based on CMS’s National Claims History (NCH) data.




                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient services on selected types of claims.

Scope

Our audit covered $22,784,260 in Medicare payments to the Hospital for 2,194 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 200 inpatient
claims with payments of $2,905,695 for review. These 200 claims had dates of service from
April 1, 2009, through December 31, 2010 (audit period).

We focused our review on the risk areas that we had identified during prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 33 claims
to focused medical review to determine whether the services met medical necessity and coding
requirements.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient
areas of review because our objective did not require an understanding of all internal controls
over the submission and processing of claims. We established reasonable assurance of the
authenticity and accuracy of the data obtained from the NCH file, but we did not assess the
completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during August of 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s NCH file
        for CYs 2009 and 2010;

   •    removed all claims with dates of service prior to April 1, 2009;

   •    obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2009 and 2010;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

                                                 3
   •   selected a stratified random sample of 200 inpatient claims totaling $2,905,695 for
       detailed review (Appendix A);

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   used an independent medical review contractor to determine whether a limited selection
       of sampled claims met medical necessity and coding requirements;

   •   calculated the correct payments for those claims requiring adjustments;

   •   used OIG/Office of Audit Services software to estimate the total overpayment to the
       Hospital (Appendix B); and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for the majority of the claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for 68
inpatient claims resulting in overpayments totaling $524,009.

Overpayments occurred primarily because the Hospital did not have adequate controls to prevent
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Based on our stratified random sample results, we estimated that the Hospital received
overpayments totaling at least $3,717,557 for the audit period. See Appendix A for details on
our sample design and methodology, Appendix B for our sample results and estimates, and
Appendix C for the results of our review by risk area.


                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 68 of the 200 inpatient claims that we reviewed.
These errors resulted in overpayments totaling $524,009.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 56 of the 200 inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that it should have billed either as outpatient or as outpatient with observation
services. These errors occurred because of weaknesses in the Hospital’s review process and
turnover in case management leadership. As a result, the Hospital received overpayments
totaling $447,982. 3

Incorrectly Billed as Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

         When a patient is discharged/transferred from an acute care Prospective Payment
         System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
         the same day for symptoms related to, or for evaluation and management of, the
         prior stay’s medical condition, hospitals shall adjust the original claim generated
         by the original stay by combining the original and subsequent stay onto a single
         claim.

For 3 of the 200 inpatient claims, the Hospital incorrectly billed Medicare separately for related
discharges and readmissions within the same day. The Hospital stated that these errors occurred
because of human error in case management, miscommunication with the billing office, and
claim-specific filing issues. As a result, the Hospital received overpayments totaling $33,645.

Incorrect Diagnosis-Related Groups

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury


3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.




                                                         5
or to improve the functioning of a malformed body member.” Chapter 1, section 80.3.2.2, of the
Manual requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly.

For 5 of the 200 inpatient claims, the Hospital billed Medicare for incorrect DRG codes. For one
claim, the Hospital stated that this error occurred because the coder did not seek clarification of
the physician documentation. The Hospital stated that the remaining four errors occurred
because of weaknesses in the review process and turnover in case management leadership. As a
result, the Hospital received overpayments totaling $17,475.

Incorrect Discharge Status

Federal regulations (42 § CFR 412.4(b)) state that a discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. A hospital that transfers an inpatient under the
above circumstance is paid a graduated per diem rate for each day of the patient’s stay in that
hospital, not to exceed the full DRG payment that would have been paid if the patient had been
discharged to another setting (42 § CFR 412.4(f)).

For 3 of the 200 inpatient claims, the Hospital incorrectly billed Medicare for patient discharges
that it should have billed as transfers. The Hospital stated that these errors occurred because of
coder error, inconsistent notes within the medical charts, or both. As a result, the Hospital
received overpayments totaling $16,407.

Manufacturer Credit for a Replaced Medical Device Not Obtained

Federal regulations (42 CFR § 412.89) require reductions in the inpatient prospective payment
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider, (2) the provider receives full credit for the cost of a device, or (3) the provider receives
a credit equal to 50 percent or more of the cost of the device.

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ....” The CMS Provider Reimbursement Manual (PRM), part 1,
§ 2102.1, states:

       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and cost conscious buyer pays for a given item
       or service. If costs are determined to exceed the level that such buyers incur, in
       the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.




                                                  6
Section 2103.A of the PRM further defines prudent buyer principles and states that Medicare
providers are expected to pursue free replacements or reduced charges under warranties for
medical devices. Section 2103.C.4 provides the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment supplied.

For 1 of the 200 inpatient claims, the Hospital did not obtain a credit for a replaced medical
device that was available under the terms of the manufacturer’s warranty. The Hospital stated
that this error occurred because it lacked clear policies and standard operating procedures. As a
result, the Hospital received an overpayment of $8,500.

OVERALL ESTIMATE OF OVERPAYMENTS

Based on our sample results, we estimated that the Hospital received overpayments totaling at
least $3,717,557 for the audit period. See Appendix A for details on our sample design and
methodology and Appendix B for our sample results and estimates.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $3,717,557 in estimated overpayments for the audit
       period that it incorrectly billed for inpatient claims and

   •   strengthen controls to ensure full compliance with Medicare requirements.

UNIVERSITY OF MIAMI HOSPITAL COMMENTS

In written comments on our draft report, the Hospital disagreed with our first recommendation.
Concerning our second recommendation, the Hospital discussed steps it had taken or planned to
take to strengthen its internal controls to ensure compliance with Medicare billing requirements.

Contested Determinations of Claims

The Hospital contested that it improperly billed five inpatient claims. For these claims, the
Hospital did not agree with our error determinations.

Rebilling of Medicare Part B Services

The Hospital stated that it concurred with footnote number 3 (page 5) regarding the possibility of
rebilling Medicare Part B for some services and that rebilling could have an effect on the
estimated overpayments if adjusted by the Medicare Administrative Contractor (MAC). The

                                                 7
issue of whether older claims can be rebilled has been subject to recent scrutiny at various levels;
therefore, the Hospital thought OIG should not extrapolate any estimated amounts of
overpayments or make any recommendations regarding refunds until the rebilling issue is settled.

Statistical Sampling

The Hospital disagreed with the decision to extrapolate the results. It stated that it had reviewed
past hospital compliance reports and that those reports recommended repayment solely of
audited cases, with no extrapolation.

The Hospital’s response is included in its entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

Contested Determinations of Claims

In response to the Hospital’s contestation that it improperly billed five inpatient claims, we
obtained an independent medical review of these claims for medical and coding errors, and our
report reflects the results of the review.

Rebilling of Medicare Part B Services

In response to the Hospital’s concerns regarding its ability to rebill for certain services that were
denied as part of this review, we acknowledge its comments; however, the rebilling issue is
beyond the scope of our audit. After the completion of our audit, CMS concurrently issued the
proposed rule CMS-1455-P and CMS Ruling 1455-R (78 Fed. Reg. 16614 (Mar. 18, 2013)) for
implementing Medicare Appeals Council and Administrative Law Judge decisions and for
handling claims and appeals until CMS could issue final regulations. CMS has now issued the
final regulations (78 Fed. Reg. 160 (Aug. 19, 2013)). The Hospital should contact its MAC for
rebilling instructions.

Statistical Sampling

During the course of the audit, we discussed with Hospital officials our plans to use statistical
sampling. As the hospital compliance review initiative has matured, we have refined our audit
methodologies. Some reviews use statistical sampling and estimation techniques to draw
conclusions about a larger portion of a hospital’s claims while other reviews use judgmental
sampling. Each hospital review is unique, and the sampling method used in each of these
reviews will vary. For this reason, we review different risk areas at different hospitals and use
both statistical and non-statistical methods for selecting our samples.

We acknowledge that most previously published compliance reviews did not use statistical
sampling and estimation. However, we maintain that the statistical sampling and estimation
techniques planned and used for this review are statistically valid methodologies that we have
successfully used to identify overpayments. Therefore, we recommend that the Hospital refund
to the Medicare program $3,717,557 in estimated overpayments for the audit period.

                                                  8
APPENDIXES
                                                                                       Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population is inpatient and outpatient claims paid to the Hospital for services provided to
Medicare beneficiaries during CYs 2009 and 2010.

SAMPLING FRAME

According to CMS’s NCH data, Medicare paid the Hospital $222,934,440 for 20,953 inpatient
and 24,535 outpatient claims for services provided to beneficiaries during CYs 2009 and 2010.

We obtained a database of claims from the NCH data totaling $112,907,650 for 5,780 inpatient
and 23,060 outpatient claims in 30 risk areas.

From the 30 risk areas, we selected 6 that consisted of 4,289 claims totaling $71,828,441. The
risk areas are: Inpatient Claims for Short Stays, Inpatient Claims with High-Severity-Level DRG
Codes, Inpatient Claims Paid in Excess of Charges, Inpatient Claims with Same-Day Discharges
and Readmissions, Inpatient Transfers, and Inpatient Manufacturer Credits for Replaced Medical
Devices.

We combined claims from each of the risk areas into a single database. We then removed 2,095
claims totaling $49,044,181 as follows:

   •   all claims less than $100,

   •   all duplicate claims,

   •   all claims under review by the Recovery Audit Contractor, and

   •   all claims with dates of service prior to April 1, 2009.

We further refined the sampling frame for inpatient claims paid in excess of charges, inpatient
claims with same-day discharges and readmissions, inpatient transfers, and inpatient
manufacturer credits for replaced medical devices.

This resulted in a sampling frame of 2,194 unique Medicare claims totaling $22,784,260.

SAMPLE UNIT

The sample unit was a Medicare paid claim.
                                                                                     Page 2 of 2


SAMPLE DESIGN

We used a stratified sample. We divided the sampling frame into six strata based on the risk
areas.

SAMPLE SIZE

We randomly selected 200 sample claims for review.

SOURCE OF RANDOM NUMBERS

We generated 147 random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software Random Number Generator.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata 1 and 2. After generating the random
numbers for these strata, we selected the corresponding claims from our sampling frame. We
selected all claims in strata 3, 4, 5, and 6.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of improper Medicare
payments in our sampling frame for the Hospital for the audit period.

                                         Sampled Claims by Stratum 1
                                                                  Number of       Number of
                                                                   Claims in     Claims in the
     Stratum                       Risk Area                     Sample Frame       Sample
        1         Inpatient Claims for Short Stays                         971               74
        2         Inpatient Claims with High-Severity-Level
                  DRG Codes                                              1,170                 73
         3        Inpatient Claims Paid in Excess of Charges                27                 27
         4        Inpatient Claims with Same-Day Discharges
                  and Readmissions                                         10                  10
         5        Inpatient Transfers                                       3                   3
         6        Inpatient Manufacturer Credits for Replaced
                  Medical Devices                                           13              13
                     TOTAL                                               2,194             200




1
    Each claim can appear in only one stratum.
                     APPENDIX B: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                                               Number of
                                                                               Incorrectly
                 Frame                                                            Billed           Value of
                  Size          Value of   Sample Total Value                   Claims in        Overpayments
    Stratum     (Claims)         Frame      Size   of Sample                     Sample           in Sample
       1             971        $8,175,436     74    $549,048                            48           $325,060
       2           1,170        13,215,515     73      963,338                            1              2,252
       3               27          357,325     27      357,325                           12            138,145
       4               10           98,424     10       98,424                            3             33,645
       5                3           29,826       3      29,826                            3             16,407
       6               13          907,734     13      907,734                            1              8,500
     Total         2,194       $22,784,260    200  $2,905,695                            68           $524,009

ESTIMATES

                      Estimated Value of Overpayments for the Audit Period
                       Limits Calculated for a 90-Percent Confidence Interval

                                   Point Estimate                 $4,462,013
                                   Lower Limit                     3,717,557 1
                                   Upper Limit                     5,208,720




1
 In accordance with OAS policy, we did not use the results from strata 2 in calculating the estimated overpayments.
Instead, we added the actual overpayments from strata 2 ($2,252) to the lower limit ($3,715,305) which resulted in
an adjusted lower limit of $3,717,557.
                     APPENDIX C: RESULTS OF REVIEW BY RISK AREA


                                                                Value of           Claims             Value of
                                              Selected          Selected          With Over-           Over-
                 Risk Area                    Claims            Claims            payments            payments
    Inpatient

    Claims for Short Stays                            74            $549,048                  48         $325,060
    Claims Paid in Excess of
                                                      27             357,325                  12           138,145
    Charges
    Claims With Same-Day
                                                      10               98,424                   3           33,645
    Discharges and Readmissions
    Transfers                                           3              29,826                   3           16,407
    Manufacturer Credits for
                                                      13             907,734                    1             8,500
    Replaced Medical Devices
    Claims With High-Severity-
                                                      73             963,338                    1             2,252
    Level DRG Codes
    Inpatient Totals                                 200         $2,905,695                   68         $524,009

Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient claims
by the risk areas we reviewed. However, we have organized this report’s findings by the types of billing errors we
found at University of Miami Hospital. Because we have organized the information differently, the information in
the individual risk areas in this table does not match precisely with this report’s findings.
              APPENDIX D: UNIVERSITY OF MIAMI HOSPITAL COMMENTS                                                 Page 1 of6

                                                                 .J 

                                        Universityof Miami Hospital 

                                                                                                July 12, 2013


        Via FedE><and Electronic Submission via E-Mail


        Lori S. Pilcher
        Regiona l Inspector General for Audit Services
        Office of Audit Services, Region IV
        61 Forsyth Street, SW, Suite 3T41
        Atlanta, GA 30303



                Report Number A-04-12-07033

        Dear Ms. Pilcher:

       The University of Miami Hospital ("UMH " or " Hospital") appreciates the opportunity to review and
       provide comments on the U.S. Depa rtm ent of Health and Human Services, Office ofthe Inspector
       Genera l ("OIG") draft report entitled University of Miami Hospital Substantially Complied With Medicare
       Billing Requirements for 2009 and 2010{"report"). UMH is committed to complying with all regulations
       and standards governing Federal health care programs, improving internal controls and proactive ly
       auditing and monitoring to minimize the risk oferrors .

       UMH's respon ses to the OIG's specific findings and recommendations are set forth below. Un less
       otherwise stated, UMH accepts the OIG's findings and will process the necessary adjus t ments through
       its Medicare Admin istrative Contractor.

       OJG Summary of Findings and Recommendations and UMH Comments


       0/G Summary
       The Hospital complied with Medicare billing requirements for 132 of the 200 inpatient claims we
       reviewed . Howeve r, the Hospital did not fully comply with Medicare billing requ irementsfor th e
       remaining 68 claim s resulting in ove rpayments of $524,009.


      These overpayments occurred primarily because the Hospita l did not have adequate controls to prevent
       incorrect billin g of Med icare claims within the selected risk areas that contained errors.


      Based on our stratified sample results, we estima t ed that the Hosp ital received overp ayments of
      $3,717,557 for the audit period.




                                                                                                           Page 1 of6
1400 NW 12th A venue
                                                                     MILLER
                                                                     St:HOOl. O lt MEDIC[ N E                 Phone: 305-325-5511
Miami, FL 33136                                                      UNIVEII SI TY 01' MIAMJ               www.umiamihospital .com
                                                                                            Page2of6




Recommendations
We recommend that the Hospital:


    • 	 refund to the Medicare program $3,717,557 in estimated overpayments received for incorrectly
        billed inpatient claims and


    • 	 strengthen controls to ensure full compliance with Medicare requirements.


UMHComment
UMH will continue to strengthen its controls in order to assure full compliance with Medicare billing
requirements. UMH remains committed to accurate submission of claims to the Medicare program and
conducts auditing, monitoring, and educational activities on a regular basis. These efforts focus on all
areas, with particular emphasis on those areas that are identified as at risk by the OIG and other
regulatory agencies. UMH will continue to make accurate claim submission a primary component of the
organization's compliance program . It acknowledges and appreciates the cooperative efforts of the OIG
auditors on this matter and the practical guidance derived from those interactions.


Except as otherwise noted in the section below related to incorrectly billed inpatient claims, UMH does
not dispute the findings set forth in Appendix B of the report regarding the value of the overpayments
identified in the six samples. With respect to those identified overpayments the University of Miami
Hosp ital will take the appropriate actions to refund any overpayments received, taking into
consideration that the total amount refunded may vary based upon factors raised in this response that
may impact the actual amount due to the Medicare program.


Respectfully, however, UMH does have specific comments and concerns regarding the nature, scope,
and methods used in the extrapolation that resulted in the estimated overpayments and recommended
refunds. It submits that the decision to extrapolate should be reconsidered and the recommended
refund modified.


FINDINGS AND COMMENTS:


Incorrectly Billed as Inpatient


0/G Finding
For 56 of the 200 inpatient claims, the Hospital incorrectly billed Medicare Part A forbeneficiary stays
that should have been billed either as outpatient or as outpatient with observation services. These
errors occurred because of weaknesses in the Hospital's reviewprocess and turnover in case
management leadership. As a result, the Hospital receivedoverpayments of $447,982 .3


Hospital Comments:
With respect to these risk areas, the hospital has taken the following actions:


                                                                                            Page 2 of 6
                                                                                               Page 3 of6




    1. 	 Electronic lnterQual review at the time of admission and continuously throughout the patient
         admissions as needed for continued stay.
    2. 	 All Medicare accounts with LOS 3 days or less are placed on an automatic bill hold and are not
         relea sed for billing until reviewed for appropriateness by Case Management.
    3. 	 A formal work queue has been developed and implemented to facilitate better tracking,
         monitoring and communication among the Billing Office and Case Management.
    4. 	 The role of Physician Advisor has been re-defined to include more active engagement in short
        stay reviews and assistance in resolving status conflicts with admitting physicians.
    5. 	 Quarterly audits of short stay accounts are being performed by the UHealth Billing Compliance
        office.


Additional Comments:
The hospital respectfully disagrees with the findings of OIG and its focused medical reviewers regarding
the following claims/case numbers: A-02;A-16; A-29; A-35; and A-51 . A re-determination that these
were proper inpatient claims would reduce the amount due for that claim category,and would reduce
any extrapolation derived in part from those estimates. In addition, footnote 3 on page 5 of the report
States that the Hospital may be able to re-bill Medicare Part B for some services as reasonable and
necessary outpatient services. UMH concurs in this observation and would welcome the opportunity to
do so. Nevertheless, OIG's position throughout the course of the audit has been that these charges
could not be re-billed because they we re from a period of time more than one year from the date of
service. Also, the audit team understandably instructed UMH that no readjustment or other actions
related to the claims under review should occur while the audit was pending and that such re-bill i ng was
an issue that should be addressed at the CMS level. This acknowledgement, however, that rebilling may
have an effect on the estimated overpayment, if and when rebilled and adjusted by the Medicare
administrative contractor, is a basis to choose not extrapolate any estimated amounts of overpayments
or make any recommendation as to refunds until the re-billing issue has been appropriately raised and
determined in an appropriate forum. This issue-whether older claims that are subject to review can be
re-billed after such review, including in part the category of the inpatient claims at issue - have been
subject to recent scrutiny and activity at the level of CMS, administrative law judges and the federal
courts. This uncertainty is a further basis to allow these issues to be considered prior to making a
recommendation regarding estimated amounts ..


Incorrectly Billed as Separate Inpatient Stay

0/G Findings:
For 3 of the 200 inpatient claims, the Hospital incorrectly billed Medicare separately for related
discharges and readmissions within the same day. The Hospital stated that these errors occurred
because of human error in case management, miscommunication with the billing office, and claim­
specific filing issues. As a result, the Hospital received overpayments of $33,645.


Hospital Comments:



                                                                                               Page 3 of6
                                                                                               Page 4 of6




The Billing Office reviews patient accounts daily prior to billing to identify those accounts with a
discharge and an admission within the same 24 hour period (Inpatient/Inpatient overlap) . A bill hold is
placed on any accounts that are identified as potential Inpatient I Inpatient overlap. Each account is
reviewed by Case Management to determine whether the claims needed to be combined prior to
releasing the bill hold.


Case Management reviews all accounts identified at risk for overlap with a second review as needed for
discrepancies. A determination not to combine overlapping accounts requires review, approval, and
documentation by the Physician Advisor. Outcomes of all inpatient overlapping accounts are presented
to the Utilization Review Committee.


Compliance issues will be added to the agenda for monthly service calls with the Billing Office. The
UHealth Billing Compliance office will participate on those calls in the future .


Incorrect Diagnosis-Related Groups

OIG Findings:
For 5 of the 200 inpatient claims, the Hospital billed Medicare for incorrect DRG codes. For one claim,
the Hospital stated that this error occurred because the coder did not seek clarification of the physician
documentation. The Hospital stated that the remaining four errors occurred because of weaknesses in
the review process and turnover in case management leadership. As aresult, the Hospital received
overpayments of $17,475.



Hospital Comments:

With regard to DRG accuracy, the hospital implemented a Clinical Documentation Program with the
hiring of four (4} Clinical Documentation Specialists in July 2012. The specialists concurrently review the
medical record documentation for clarity with a physician prior to the discharge of the pati ent. The
cornerstone of the program is continuous education and timely feedback to the clinical providers.

In addition, coders have been educated regarding best practices with physician queries.

Incorrect Discharge Status

OIG Findings

For 3 of the 200 inpatient claims, the Hospital incorrectly billed Medicare for patient discharges that it
should have billed as transfers. The Hospital stated that these errors occurred beca use of coder error,
inconsistent notes within the medical charts, or both. As a result, the Hospital received overpayments of
$16,407 .

Hospital Comments:




                                                                                               Page4of6
                                                                                                Page 5 of6




For clarity, the prior case management weakness related solely to the inpatient issues and was not part
of the DRG response regarding Stratum 3. In addition, the response to one of the inpatient claims strata
identified an issue with CMS processing of the claim rather than a billing error.


UMH has completed and/or initiated the following corrective actions for in patient transfers:
    • 	 Education and training has been provided to all full time coders
    • 	 SOPs for training of per diem coders have been updated to include targeted education for in
         patient transfers
    • 	 Review of Discharge Disposition status has been added to the monthly monitoring plan for Case
         Management with outcomes being presented to the Utilization Review (UR) Committee.



Manufacturer Credit for a Replaced Medical Device Not Obtained

0/G Findings:
For 1 of the 200 inpatient claims, the Hospital did not obtain a credit for a replaced medicaldevice that
was available under the terms of the manufacturer's warranty. The Hospital statedthat this error
occurred because it lacked clear policies and standard operating procedures. As aresult, the Hospital
received an overpayment of $8,500 on this claim .


Hospital Comments: 

As a result of the OIG audit, we have completed a review of our processes and have taken the following 

actions: 

    1. 	 Drafted a UMH policy for the relevant clinical service lines and laboratories. Completion of the
         pol icy and presentation to the hospital governance committee is expected in the late summer
        with implementation to follow.


    2. 	 Designed and implemented a monitoring and auditing plan to assure accuracy going forward.


OIG Overall Estimate of Overpayments

Based on our sample results, we estimated that the Hospital received overpayments of$3,717,557 for
the audit period.

0/G Recommendations

We recommend that the Hospital :

    • 	 refund to the Medicare program $3,717,557 in estimated overpayments received forincorrectly
        billed inpatient claims and
    • 	 strengthen controls to ensure full compliance with Medicare requirements.

Hospitals Response to Recommendations



                                                                                                Page 5 of6
                                                                                               Page6of6




As stated in the report, unrelated prior OIG audits, investigations, and inspections identified certain
hospital claims that are at risk for non-compliance with Medicare billing requirements. OIG identified
these types of     hospital claims using computer matching, data mining, and analysis           techniques
including six listed areas that, for purposes of the report were referred to as "risk areas (report at 1-2).
Those risk areas served as the basis for the audit review of the Hospital. The report acknowledges that
"this review is part of a series of OIG reviews of Medicare Payments to hospitals for selected types of
claims for inpatient and outpatient services.

UMH disagrees with the decision to extrapolate the results from the audit sample.       We have reviewed
the published reports relating to audits of other hospitals on the same issues considered here. Almost
without exception, those audits recommended             repayment solely of audited cases, with no
extrapolation.    There is no reasoned basis for treating UM H differently, especially in view of the fact
that the results in those others are comparable to the proposed findings for UMH.        The lack of clarity
regarding the standards for short stays and the controversy over rebilling also argues strongly against
extrapolation.

Despite the objections above and that follows, which UMH hereby             reserves, UMH recognizes its
obligations and reconfirms its commitment to appropriately interpret and bill services and appreciates
the opportunity to learn from the items highlighted in the review and will continue to use the outcomes
of this audit as a guideline for further process improvement.

If you require any additional information or if I can provide any further assistance, please do not hesitate
to contact me .

Sincerely,

Darryl Caulton
Chief Financial Officer
University of Miami Hospital



cc: Pascal Goldschmidt, M.D., Senior Vice President for Medical Affairs and Dean, University of Miami­
Miller School of Medicine, Chief Executive Officer/ University of Miami Health System
Joe Natoli/ Interim Chief Operating Officer, University of Miami Miller School of Medicine
Jennifer McCafferty-Cepero, Ph.D., Chief Medical Compliance Officer, University of Miami M iller School
of Medicine




                                                                                                Page 6 of 6
